  DEPARTMENT OF HOMELAND SECURITY

           Office of Inspector General

                      Information Technology
                         Management Letter
                        for the FY 2004 DHS
                     Financial Statement Audit
                              (Redacted)




 Notice: The Department of Homeland Security, Office of Inspector General, has redacted
 this report for public release. The redactions are identified as (b)(2), comparable to 5
 U.S.C. § 552 (b)(2). A review under the Freedom of Information Act will be conducted upon
 request.




            Office of Information Technology
OIG-05-27                                                                 July 2005
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




December 15, 2004

Office of Inspector General and Chief Information Officer,
U.S. Department of Homeland Security,
Washington, DC

Ladies and Gentlemen:

We were engaged to audit the consolidated balance sheet of the U.S. Department of Homeland Security
(DHS) as of September 30, 2004, and the related consolidated statements of net cost, changes in net
position, financing, and custodial activity, and combined statement of budgetary resources (hereinafter
referred to as “financial statements”), for the year then ended. Because of matters discussed in our
Independent Auditors’ Report, dated November 8, 2004, the scope of our work was not sufficient to enable
us to express, and we did not express, an opinion on the financial statements.
In connection with our fiscal year 2004 engagement, we were also engaged to consider DHS’ internal
control over financial reporting and to test DHS’ compliance with certain provisions of applicable laws,
regulations, contracts, and grant agreements that could have a direct and material effect on these financial
statements. Our procedures may not include examining the effectiveness of internal controls and do not
provide assurance on internal control. We have not considered internal control since the date of our report.
We noted certain matters involving internal control and other operational matters with respect to
information technology that are summarized in the Information Technology Management Comments
starting on page 1. These comments and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve internal control or result in other operating
efficiencies. These comments are in addition to the reportable conditions presented in our Independent
Auditors’ Report, dated November 8, 2004, and included in the FY 2004 DHS Performance and
Accountability Report. A description of each internal control finding, and its disposition, as either a
material weakness or an information technology management comment is provided in Appendix B. We
have also included the current status of the prior year Notice of Findings and Recommendations in
Appendix C. Our comments related to financial management have been presented in a separate letter to the
Office of Inspector General and the DHS Chief Financial Officer dated December 15, 2004.
As described above, the scope of our work was not sufficient to express an opinion on the financial
statements of DHS as of and for the year ended September 30, 2004, and accordingly, other matters
involving internal control over information technology may have been identified and reported had we been
able to perform all procedures necessary to express an opinion. We aim, however, to use our knowledge of
DHS’ organization gained during our work to make comments and suggestions that we hope will be useful
to you.
This report is intended for the information and use of DHS’ management, the Office of Inspector General,
the U.S. Office of Management and Budget, the U.S. Congress, and the Government Accountability
Office, and is not intended to be and should not be used by anyone other than these specified parties.
Very truly yours,




                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
                                   Department of Homeland Security
                             Information Technology Management Comments
                                          September 30, 2004

             INFORMATION TECHNOLOGY MANAGEMENT COMMENTS
Section/ FISCAM General Control Area
  Comment
  Reference   Subject                                                                          Page
Information Technology Objective, Scope and Approach                                             1
Summary of Findings and Recommendations                                                          2
Findings by Audit Area                                                                           2


Entity-Wide Security Program Planning and Management                                             2
  EWS-4-01        Certification and accreditation, system inventories, reviews of controls       3
  EWS-4-02        Security training and awareness                                                3
  EWS-4-03        Security plans                                                                 3
  EWS-4-04        Security risk assessments                                                      3

Access Controls                                                                                  3
  AC-4-01         Passwords, user account management, excessive access privileges                4
  AC-4-02         Configuration of workstations and user accounts                                4

System Software                                                                                  4
  SS-4-01         Restricting and monitoring access to operating system software                 4
  SS-4-02         Documentation of operating system setting changes                              4

Segregation of Duties                                                                            5
  SD-4-01         Incompatible functions                                                         5
  SD-4-01         Position description documentation                                             5

Service Continuity                                                                               5
  SC-4-01         Business continuity / disaster plans                                           5
  SC-4-02         Testing of service continuity plans and training of professionals              6

Application Software Development and Change Controls                                             6
  ASDCC-4-01      Software changes need to be better documented                                  6

Application Controls                                                                             6
  APC-4-01        Outdated application user guide of a key financial system.                     6
  APC-4-02        Not consistently performing verification of data input and output,             6
                  including the reconciliation of data between applications
                                           APPENDICES
Appendix     Subject                                                                           Page
                                                                                                 7
    A         Description of Financial Systems and IT Infrastructure within the Scope of the
              FY 2004 DHS Financial Statement Audit
    B        FY 2004 Detail Notice of IT Findings and Recommendations by DHS                    13
             Organizational Element

   C         Cross-Walk – Status of Prior Year Notice of Findings and Recommendations to        37
             Current Year Notice of Findings and Recommendations

   D         Management Response to Draft IT Management Letter                                  43
                               Department of Homeland Security
                         Information Technology Management Comments
                                      September 30, 2004

INFORMATION TECHNOLOGY OBJECTIVE, SCOPE AND
                APPROACH
KPMG performed a review of DHS IT general controls in support of the FY 2004 DHS financial
statement engagement. The overall objective of our review was to evaluate the effectiveness of IT
general controls of DHS’ financial processing environment and related IT infrastructure as necessary
to support the engagement. The Federal Information System Controls Audit Manual (FISCAM),
issued by the Government Accountability Office, formed the basis of our review. The scope of the IT
general controls assessment included testing at DHS’ Office of the Chief Financial Officer (OCFO),
and all significant DHS Bureaus as described in Appendix A.

FISCAM is designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial audit. FISCAM also provides guidance to IT auditors when considering the scope and
extent of review that generally should be performed when evaluating general controls and the IT
environment of a federal agency. FISCAM defines the following six control functions to be essential
to the effective operation of the general IT controls environment.

    •   Entity-wide security program planning and management (EWS) – Controls that provide a
        framework and continuing cycle of activity for managing risk, developing security policies,
        assigning responsibilities, and monitoring the adequacy of computer-related security controls.
    •   Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
        programs, equipment, and facilities) to protect against unauthorized modification, loss, and
        disclosure.
    •   System software (SS) – Controls that limit and monitor access to powerful programs that
        operate computer hardware.
    •   Segregation of duties (SD) – Controls that constitute policies, procedures, and an
        organizational structure to prevent one individual from controlling key aspects of computer-
        related operations, thus deterring unauthorized actions or access to assets or records.
    •   Service continuity (SC) – Controls that involve procedures for continuing critical operations
        without interruption, or with prompt resumption, when unexpected events occur.
    •   Application software development and change control (ASDCC) – Controls that help to
        prevent the implementation of unauthorized programs or modifications to existing programs.
    •   Application Controls (APC) - Application controls are the structure, policies, and procedures
        that apply to separate, individual application systems, such as accounts payable, inventory,
        payroll, grants, or loans.

To complement our general IT controls review, we also performed technical security testing for key
network and system devices, as well as testing over key financial application controls. The technical
security testing was performed both over the Internet and from within select DHS facilities, and was
focused on test, development, and production devices that directly support DHS financial processing
and key general support systems. The application control testing was performed to assess the controls
that support the financial system’s internal controls over the input, processing, and output of financial
data and transactions.

A draft version of this IT Management Letter was provided to the DHS Chief Information Officer,
who generally agreed with the comments and recommendations and his response is included as
Appendix D of this document.
                                             1
                                Department of Homeland Security
                          Information Technology Management Comments
                                       September 30, 2004


    SUMMARY OF FINDINGS AND RECOMMENDATIONS
  During FY 2004 DHS took corrective action to address many prior year IT control weaknesses.
  However, also during FY 2004, we continued to find IT general control weaknesses at each Bureau.
  The most significant weaknesses from a financial statement audit perspective relate to information
  security (entity-wide security, access controls, and systems software). Collectively, the IT control
  weaknesses limit DHS’ ability to ensure that critical financial and operational data is maintained in
  such a manner to ensure confidentiality, integrity, and availability. In addition, these weaknesses
  negatively impact the internal controls over DHS financial reporting and its operation, and we
  consider them to collectively represent a material weaknesses under standards established by the
  AICPA.

  Although we noted improvement, many of the conditions identified in FY 2003 have not been
  corrected because DHS still faces challenges related to the merging of numerous entities that have
  had their own IT functions, controls, processes, and overall organizational shortages. During FY
  2004 DHS took steps to help address these conditions, such as restructuring DHS’ Chief Information
  Officer’s role and function, improving its IT security program by completing DHS-wide training and
  awareness sessions, continued having bi-weekly Information Systems Security Board (ISSB)
  meetings, and awarding a contract for the Electronically Managing Enterprise Resources for
  Government Efficiency and Effectiveness (EMERGE2) program, which will help consolidate IT
  functions across DHS. In addition, during FY 2004, DHS implemented additional policies and
  procedures related to IT controls. For example, DHS updated its Department of Homeland Security
  Sensitive Systems Handbook Publication, which is intended to provide DHS organizational element
  CIOs, Information Systems Security Managers (ISSMs) and Information Systems Security Officers
  (ISSOs) with the necessary guidance to develop specific policies and procedures for their individual
  application systems.

  Despite these improvements, DHS needs further emphasis on the monitoring and enforcement of the
  policies and procedures through the performance of periodic security control assessments and audits.
  Further improvements are needed on implementing and enforcing a DHS-wide security certification
  and accreditation (C&A) program, and technical security control training for system administrators
  and security officers. Many of the technical issues identified during our review, which were also
  identified during FY 2003, such as weak system access controls and the lack of contingency planning
  strategies, can be addressed through a more effective security C&A program and security training
  program.

FINDINGS BY AUDIT AREA

  Entity-Wide Security Program Planning and Management

  During FY 2004 DHS improved its level of entity-wide security program planning and management.
  For example, DHS implemented an enterprise-wide security C&A tool that provides the ability to
  generate test plans that are mapped to DHS policy and ensure that policy compliance is actually tested
  during the security test and evaluation phase of the C&A process. In addition, as noted earlier, DHS-
  wide security training and awareness efforts were made. However, continued efforts are needed,
  especially in the areas of program management related to the detection and monitoring of technical
  information security weaknesses. Collectively, the identified entity-wide security planning and
  management issues, coupled with the access control issues described later in this management

                                                  2
                               Department of Homeland Security
                         Information Technology Management Comments
                                      September 30, 2004

comment letter, reduce the overall effectiveness of the entity-wide security programs for the
individual DHS Bureaus, and the overall Department.

Conditions noted in FY 2004 regarding entity-wide security program planning and management at
DHS and its Bureaus were:

    •   EWS-4-01 – Despite the implementation of a security C&A tool, security C&A efforts were
        still not completely implemented in such a manner to ensure the detection and prevention of
        technical security weaknesses.
    •   EWS-4-02 – Security training and awareness programs, especially those related to the
        detection and prevention of technical weaknesses, can be improved.
    •   EWS-4-03 – Security plans were incomplete, or otherwise did not meet requirements set forth
        in Office of Budget and Management (OMB) Circular A-130, Management of Federal
        Information Resources (e.g. Did not consistently document existing system security controls)
    •   EWS-4-04 – Security risk assessments were not regularly performed and were not performed
        consistently.

Recommendations:

Entity-wide security program planning and management controls should be in place to establish a
framework and continuing cycle of activity to manage security risk, develop security policies, assign
responsibilities, and monitor the adequacy of computer security related controls. We recommend that
the DHS Chief Information Officer (CIO), in coordination with the CFO and other DHS functional
leaders, continue efforts to fully implement a security program to ensure that:

    a. Implementation and enforcement of the C&A program continues;
    b. A DHS-wide security training and awareness program is designed and implemented
       consistent with OMB and NIST guidance. A key focus of the training program should be on
       the detection and prevention of technical weaknesses identified earlier in this management
       letter;
    c. Information security planning efforts follow applicable Federal guidance (OMB and NIST);
    d. Security risk assessments are completed in a consistent manner per OMB and NIST guidance;
       and
    e. The above recommended entity-wide security efforts are implemented in a timely and
       consistent manner throughout the agency.

Access Controls

During FY 2004 we noted significant access control vulnerabilities with internal IT devices (i.e.,
inside the Bureaus’ firewalls). These are significant issues because personnel inside the organization
who best understand the organization’s systems, applications, and business processes are able to make
unauthorized access to some systems and applications. Some of the identified vulnerable devices are
used for test and development purposes. In some cases, users are able to access test and development
devices with group passwords, system default passwords, or the same passwords with which they log
into production devices. As a result, test and development devices could be a target of
hackers/crackers to obtain information (i.e., user password listings) that can be used to attempt further
access into DHS’ IT environment.




                                                 3
                               Department of Homeland Security
                         Information Technology Management Comments
                                      September 30, 2004

Conditions noted in FY 2004 regarding access controls at DHS and its Bureaus were:

    •   AC-4-01 – Instances of missing user passwords on key servers and databases, weak user
        passwords, and weaknesses in user account management. Also, we noted several cases where
        user accounts were not periodically reviewed for appropriateness, including authorizations to
        use group user accounts and to identify excessive access privileges.
    •   AC-4-02 – Instances where workstations, servers, or network devices were configured
        without necessary security patches, or were not configured in the most secure manner. We
        also identified many user accounts that were not configured for automatic log-off or account
        lockout.

Recommendations:

In close concert with an organization’s entity-wide information security program, access controls for
general support systems and applications should provide reasonable assurance that computer
resources such as data files, application programs, and computer-related facilities and equipment are
protected against unauthorized modification, disclosure, loss, or impairment. Access controls are
facilitated by an organization’s entity-wide security program. Such controls include physical
controls, such as keeping computers in locked rooms to limit physical access, and logical controls,
such as security software programs designed to prevent or detect unauthorized access to sensitive
files. Inadequate access controls diminish the reliability of computerized data and increase the risk of
destruction or inappropriate disclosure of information.

We recommend that the DHS CIO, in coordination with the OCFO and other DHS functional leaders:

    a. Ensure that password controls meet DHS password requirements and are enforced on all
       systems;
    b. Implement a password account management process within the Bureaus to ensure the
       periodic review of user accounts;
    c. Design and implement a DHS-wide patch and security configuration process;
    d. Implement a vulnerability assessment process, whereby systems are periodically reviewed for
       security weaknesses; and
    e. Include the output of these recommendations in the DHS C&A program.

System Software

We noted weaknesses in programs designed to operate and control the processing activities of
computer equipment. Weaknesses in this control area, closely linked to entity-wide security and
access controls, increase the likelihood that unauthorized individuals using system software could
circumvent security controls to read, modify, or delete critical or sensitive information and programs.
Authorized users of the system could gain unauthorized privileges to conduct unauthorized actions;
and/or systems software could be used to circumvent edits and other controls built into application
programs.

Conditions noted regarding system software at DHS and its Bureaus were:

    •   SS-4-01 – Instances where policies and procedures for restricting and monitoring access to
        operating system software were not implemented, or were inadequate. In some cases, the
        ability to monitor security logs did not exist.
    •   SS-4-02 – Changes to sensitive operating system settings were not always documented.


                                                 4
                              Department of Homeland Security
                        Information Technology Management Comments
                                     September 30, 2004

Recommendation: We recommend that the DHS CIO, in coordination with the OCFO and other
DHS functional leaders, ensure that Bureau personnel comply with the established policies and
procedures for monitoring, use, and changes related to operating systems.

Segregation of Duties

During FY 2004, we continued to note instances where an individual controlled more than one critical
function within a process, increasing the risk that erroneous or fraudulent transactions could be
processed, improper program changes could be implemented, and computer resources could be
damaged or destroyed, without detection. Additionally, we noted a lack of segregation of duties
between major operating and programming activities, including duties performed by users,
application programmers, and data center staff.

Conditions noted regarding segregation of duties at DHS and its Bureaus were:

    •   SD-4-01 – Instances where individuals were able to perform incompatible functions, such as
        the changing, testing, and implementing software, without sufficient compensating controls in
        place.
    •   SD-4-02 – Instances where key security positions were not defined or assigned, and
        descriptions of positions were not documented or updated.

Recommendations:

We recommend that the DHS CIO, in coordination with the OCFO and other DHS functional leaders,
ensure that:

    a. Policies and procedures are developed and implemented to address segregation of duties for
       IT and accounting functions; and
    b. Responsibilities are documented so that incompatible duties are consistently separated. If this
       is not feasible given the smaller size of certain functions, then sufficient compensating
       controls, such as periodic peer reviews, should be implemented.

Service Continuity

During FY 2004 we noted that DHS took some corrective actions to address IT control issues related
to the back-up and protection of critical system data. In addition, the DHS OCIO implemented the
use of a Digital Dashboard that includes a continuity planning metric. This metric is based on the
percentage of systems with business contingency plans and the percentage of business contingency
plans that have been tested. Despite these improvements, weaknesses related to disaster recovery
plans and business continuity plans continue to exist. These issues are important because losing the
capability to process, retrieve, and protect information maintained electronically can significantly
affect an agency’s ability to accomplish its mission.

Conditions noted regarding service continuity at DHS and its Bureaus were:

    •   SC-4-01 – Several Bureaus had incomplete business continuity plans and systems with
        incomplete disaster recovery plans. Some plans did not contain current system information,
        emergency processing priorities, procedures for backup and storage, or other critical
        information.

                                               5
                             Department of Homeland Security
                       Information Technology Management Comments
                                    September 30, 2004

   •   SC-4-02 – Some Bureau service continuity plans were not consistently tested, and individuals
       did not receive training on how to respond to emergency situations.

Recommendations:

We recommend that the DHS CIO, in coordination with the OCFO and other DHS functional leaders:

   a. Develop and implement complete business continuity plans and system disaster recovery
      plans;
   b. Perform bureau specific and DHS-wide testing of key service continuity capabilities; and
   c. Design and Implement a DHS-wide service continuity training program..

Application Software Development and Change Control

During FY 2004 we noted that DHS took corrective actions to address IT control issues related the
application software changes. However, we noted that in some cases the application software change
control documentation was still not consistent with Bureau systems development life cycle (SDLC)
guidance.

   •   ASDCC-4-01 – Software changes need to be documented in a more consistent manner.

Recommendation:

   a. We recommend that the DHS CIO, in coordination with the OCFO and other DHS functional
      leaders, ensure that Bureaus improve documentation software changes to ensure compliance
      with Bureau SDLC guidance.

Application Controls

During FY 2004, we noted instances where application policies and procedures were not kept current,
and incomplete verification of data input and output, including the reconciliation between
applications was not consistently being performed. These issues are important because securing the
capability to input, process, reconcile, and retrieve information maintained electronically can
significantly affect an agency’s ability to accomplish its mission.

Conditions noted regarding application controls at DHS and its Bureaus were:

   •   APC-4-01 – One bureau utilized an outdated application user guide of a key financial system.
   •   APC-4-02 – Several bureaus’ were not consistently performing verification of data input and
       output, including the reconciliation of data between applications

Recommendations:

We recommend that the DHS CIO, in coordination with the OCFO and other DHS functional leaders,
ensure that:

   a. Bureaus keep input, processing and output control policy and procedures current; and
   b. Perform regular period verification of data input and output, including the reconciliation
       between applications.

                                               6
                                                           Appendix A

                    Department of Homeland Security
              Information Technology Management Comments
                           September 30, 2004




    Appendix A - Description of Financial Systems and IT
Infrastructure within the Scope of the FY 2004 DHS Financial
                       Statement Audit




                                  7
                                                                                          Appendix A

                              Department of Homeland Security
                        Information Technology Management Comments
                                     September 30, 2004


Below is a description of significant DHS financial management systems and supporting IT
infrastructure included in the scope of the financial statement audit for the twelve months ended
September 30, 2004.

United State Citizen and Immigration Services (USCIS)/Immigration and Customs Enforcement
(ICE)

Locations of Review: USCIS/ICE Headquarters in Washington, D.C., as well as offices in Texas,
California, Vermont, and Nebraska.

Systems Subject to Review:

•   Federal Financial Management System (FFMS) – FFMS supports all USCIS/ICE core financial
    processing. FFMS runs on an Oracle database. FFMS uses a Standard General Ledger (SGL) for
    the accounting of agency financial transactions.

•   Claims 3– Claims 3 is a database used to track pending applications, and is accessible by the
    various USCIS service centers. Claims 3 contains totals of pending immigration applications (by
    application type). The Claims 3 mainframe acts as a central repository for entering data into the
    Claims 3 Local Area Network (LAN) via a daily upload process. The district offices do not have
    direct access to the Claims 3 mainframe platform.

United States Coast Guard

Locations of Review: Coast Guard Headquarters in Washington, DC; the Aviation Repair and Supply
Center (ARSC) in Elizabeth City, North Carolina; the Coast Guard Finance Center (FINCEN) in
Chesapeake, Virginia; the Operations Supply Center (OSC) in Martinsburg, West Virginia; and the
Personnel Service Center (PSC) in Topeka, Kansas.

Systems Subject to Review:

•   Coast Guard Oracle Financials (CGOF) – CGOF is the core accounting system that records
    financial transactions and generates financial statements for the Coast Guard. CGOF is hosted at
    FINCEN, the Coast Guard’s primary data center.

•   Naval Electronics Supply Support System (NESSS) – Formerly named the Supply Center
    Computer Replacement System (SCCR), NESSS is hosted at OSC. NESSS is the primary
    financial application for the Engineering Logistics Command (ELC), the Supply Fund, and the
    Yard fund. Also housed at OSC is the Fleet Logistics System (FLS), a web-based application
    designed to automate the management of CG vessel logistics by supporting the following
    functions: configuration, maintenance, supply and finance. In addition, OSC is responsible for
    CMPlus, the central repository for activities associated with maintaining Coast Guard assets at the
    unit level.

•   Aircraft Logistics Management Information System’s (ALMIS) – Hosted at the ARSC, ALMIS is
    used to track and schedule aircraft maintenance and configuration, as well as provide support for
    the procurement, inventory management, accounting, aircrew qualifications, flight operations, and
                                                8
                                                                                             Appendix A

                               Department of Homeland Security
                         Information Technology Management Comments
                                      September 30, 2004

    decision support functions for the ARSC and the 25 air stations. The Aviation Maintenance
    Management Information System (AMMIS) is a component of ALIMS, and provides the ability
    to track and schedule aircraft maintenance and configuration as well as provide support for
    procurement, inventory management, and accounting.

Several other key Coast Guard financial applications support military personnel and payroll, retired
pay, and travel claims. These applications are hosted at the PSC, which was formerly known as the
Human Resources Services and Information Center. These applications include the Personnel
Management Information System (PMIS) and the Joint Uniform Military Pay System (JUMPS). Also
housed at PSC is the PeopleSoft 8.3 Direct Access application, which is used by members for self-
service functions, including updating and viewing personal information.

In addition, the Coast Guard maintains hosts on the Internet in thirteen Internet Protocol (IP) address
ranges. Hosts within these ranges support various Web based applications, e-mail servers, and File
Transfer Protocol (FTP) servers.

United States Customs and Border Protection (CBP)

Locations of Review: The CBP National Finance Center (NFC) in Indianapolis, Indiana and the
National Data Center (NDC) in Newington, Virginia.

Systems Subject to Review:

•   Asset Information Management System (AIMS) – AIMS is CBP's IBM mainframe-based financial
    management system that supports primary financial accounting and reporting processes, and a
    number of additional subsystems for specific operational and administrative management
    functions. The core system consists of general ledger, accounts receivable,
    disbursements/payables, purchasing, and budget execution accounts. AIMS is hosted on a
    customized version of American Management Systems' software – Federal Financial System
    (FFS).

•   Automated Commercial System (ACS) – ACS is a collection of mainframe-based applications
    used to track, control, and process all commercial goods, conveyances and private aircraft
    entering the United States territory, for the purpose of collecting import duties, fees, and taxes
    owed the Federal government.

•   Seized Assets and Cases Tracking System (SEACATS) – Used for tracking seized assets, customs
    forfeiture fund, and fines & penalties.

•   SAP R/3 – SAP is a client/server-based financial management system that was implemented
    during FY 2004 to ultimately replace the AIMS mainframe-based financial system (FFS) using a
    phased approach. The SAP Materials Management module was implemented and utilized in FY
    2004. Other SAP modules are to be implemented in FY 2005.

CBP also maintains personnel, payroll, and scheduling systems.




                                                  9
                                                                                          Appendix A

                              Department of Homeland Security
                        Information Technology Management Comments
                                     September 30, 2004

DHS Consolidated

Location of Review: DHS Headquarters in Washington, D.C.

Systems Subject to Review:

•   Treasury Information Executive Repository (TIER) – The system of record for the DHS
    consolidated financial statements is TIER. The DHS Bureaus update TIER on a monthly basis
    with data extracted from their core financial management systems. TIER subjects Bureau
    financial data to a series of validation and edit checks before it becomes part of the system of
    record. Data cannot be modified directly in TIER, but must be resubmitted as an input file.

•   CFO Vision – CFO Vision interfaces with TIER, and is used for the consolidation of the financial
    data and the preparation of the DHS financial statements.

The TIER and CFO Vision applications reside on the Department of Treasury’s (Treasury) network
and are administered by Treasury. Treasury is responsible for the administration of the TIER
Windows NT server, Oracle 8i database, and the TIER and CFO Visions applications. The DHS
Office of Financial Management (OFM) is responsible for the administration of user accounts within
the TIER and CFO Vision applications.

Emergency Preparedness and Response (EPR)
Locations of Review: Federal Emergency Management Agency (FEMA) Headquarters in
Washington, D.C., and the Mount Weather Emergency Assistance Center (MWEAC) in Bluemont,
Virginia.

Systems Subject to Review:

•   Integrated Financial Management Information System (IFMIS) – IFMIS is the key financial
    reporting system, and has several feeder subsystems (budget, procurement, accounting, and other
    administrative processes and reporting).

•   National Emergency Management Information System (NEMIS) – NEMIS is an integrated system
    to provide FEMA, the States, and certain other Federal agencies with automation to perform
    disaster related operations. NEMIS support all phases of emergency management, and provides
    financial related data to IFMIS via an automated interface.

Limited Scope

Locations of Review: We performed follow-up on a FY 2003 finding at the Federal Law
Enforcement Training Center (FLETC) Headquarters in Glynco, Georgia.

Systems Subject to Review:

The Momentum Financial System is FLETC’s core computerized system that processes financial
documents generated by various FLETC divisions in support of procurement, payroll, budget and
accounting activities.



                                                10
                                                                                         Appendix A

                              Department of Homeland Security
                        Information Technology Management Comments
                                     September 30, 2004


Office of State and Local Government Coordination and Preparedness (SLGCP, formerly the
Office for Domestic Preparedness)

Location of Review: SLGCP Headquarters in Washington, D.C.

Systems Subject to Review:

SLGCP’s IT platforms are hosted and supported by the Department of Justice’s Office of Justice
Programs (OJP). The following is a list of key financial related applications supporting SLGCP.

•   IFMIS (same application as FEMA, but hosted at OJP) – IFMIS consists of five modules that
    include: budget, cost posting, disbursement, general ledger, and accounts receivable. Users
    access the system through individual workstations that are installed throughout SLGCP and OJP.
    The current IFMIS version does not have the ability to produce external federal financial reports
    (i.e., SF132 and SF133) and financial statements. IFMIS was updated in February 2002 with the
    version certified by the Joint Financial Management Improvement Program (JFMIP).

•   Grants Management System (GMS) – GMS supports the SLGCP grant management process
    involving the receipt of grant applications and grant processing activities. GMS is divided into
    two logical elements. There is a grantee and an administration element within the system. The
    grantee component provides the Internet interface and functionality required for all of the
    grantees to submit grant applications on-line. The second component, the administration
    component, provides SLGCP/OJP personnel the tools required to store, process, track and
    ultimately make decisions about the applications submitted by the grantee. This system does not
    interface directly with IFMIS.

•   Line of Credit Electronic System (LOCES) – The LOCES allows recipients of SLGCP funds to
    electronically request payment from OJP on one day and receive a direct deposit to their bank for
    the requested funds usually on the following day. Batch information containing draw down
    transaction information from LOCES is transferred to IFMIS. The IFMIS system then interfaces
    with Treasury to transfer payment information to Treasury, resulting in a disbursement of funds
    to the grantee.

•   Paperless Request System (PAPRS) – This system allows grantees to access their grant funds.
    The system includes a front and back end application. The front-end application provides the
    interface where grantees make their grant requests. The back end application is primarily used by
    accountants and certifying officials. The back end application also interfaces with the IFMIS
    application. Batch information containing draw down transaction information from PAPRS is
    interfaced with IFMIS. The IFMIS system then interfaces with Treasury to transfer payment
    information to Treasury, resulting in a disbursement of funds to the grantee.

•   SF 269 Web Based System – The web based system enables authorized users to view grant
    information, view previously submitted SF269’s, and submit quarterly SF269’s online. SF 269
    web-based system is interfaced to the PAPRS and LOCES payment system.

SLGCP currently provides state and local agencies with grant funding services to acquire specialized
response equipment, emergency responder training and technical assistance, and support to plan and
                                               11
                                                                                          Appendix A

                              Department of Homeland Security
                        Information Technology Management Comments
                                     September 30, 2004

conduct exercises tailored to the circumstances of the jurisdiction. Starting July 2004, SLGCP who
currently relied on OJP for their network and IT platform support of applications; will begin to
migrate all support over to the Department of Homeland Security. The plan for the transfer of all
SLGCP functions to DHS will not be fully completed until January 2005. Currently the only SLGCP
application that is supported fully by DHS is the Data Collection Toolkit. This application was
previously hosted through OJP; now a third party contractor is hosting the application in Dallas,
Texas.

Transportation Security Administration (TSA)

Locations of Review: TSA Headquarters in Washington, D.C. and the DOT data center in Oklahoma
City, Oklahoma. TSA’s financial applications are hosted on DOT IT platforms.

Systems Subject to Review:

•   Consolidated Uniform Payroll System (CUPS) – CUPS maintains TSA payroll data, calculates
    pay, wages, tax information and maintains service history and separation records. CUPS
    interfaces with the Integrated Personnel and Payroll System (IPPS), Little IPPS, CUPS National,
    CPMIS, DELPHI, and also receives other data inputs. CUPS is a mainframe application.

•   Consolidated Personnel Management Information System (CPMIS) – CPMIS is the DOT
    personnel management system. The system processes and tracks personnel actions and employee
    related data for TSA, including employee elections for the Thrift Savings Plan (TSP), life
    insurance, and health insurance as well as training data and general employee information (i.e.
    name, address, etc.). CPMIS is also used to maintain information related to budget, training, civil
    rights, labor relations and security. CPMIS is a mainframe application. CPMIS interfaces with
    CUPS to allow CUPS to perform the calculation of pay, time and attendance reporting, leave
    accounting, and wage and tax reporting. CUPS also uses the information received from CPMIS to
    initiate payroll deductions for TSP, insurances, Combined Federal Campaign contributions, and
    savings bonds.

•   Integrated Personnel And Payroll System (IPPS) – IPPS processes requests for personnel action,
    training enrollments, and time and attendance information. IPPS interfaces with CPMIS and
    CUPS to receive time and attendance and payroll information. IPPS also interfaces with the IPPS
    Management and Reporting (MIR) system. MIR is a client/server system that provides reporting
    capability through an Oracle database.

•   Delphi – Delphi is the TSA core financial management system, which provides accounts payable,
    accounts receivable, general ledger, and budgeting functionality. Delphi is Oracle based and is a
    commercial off–the–shelf (COTS) software package that is certified to meet government
    accounting needs.




                                                12
                                                             Appendix B

                      Department of Homeland Security
                Information Technology Management Comments
                             September 30, 2004




Appendix B – FY 2004 Notice of IT Findings and Recommendations
            - Detail by DHS Organizational Element




                                   13
                                                        Appendix B

                 Department of Homeland Security
           Information Technology Management Comments
                        September 30, 2004




           Department of Homeland Security
            FY2004 Information Technology
Notification of Findings and Recommendations – Detail


      Citizenship and Immigration Services

      Immigration and Customs Enforcement




                              14
                                                                                                     Appendix B

                                       Department of Homeland Security
                                 Information Technology Management Comments
                                              September 30, 2004

                                     Department of Homeland Security
                                      FY2004 Information Technology
                          Notification of Findings and Recommendations – Detail

           Citizenship and Immigration Services / Immigration and Customs Enforcement

                                                                                             Disposition
                                                                                          Material Weakness
 NFR #                   Condition                       Recommendation
                                                                                         (MW) or Management
                                                                                           Comment (MC)
            (b)(2)High                                                                          MW
            (b)(2)High

CIS-4-09


                                                                                                MW

CIS-4-10


                                                                                                MW

CIS-4-19


                                                                                                MC

CIS-4-21



                                                                                                MW
             The site C&A package for the
                                                ensure critical systems are accredited
CIS-4-27     California Service Center has
                                                every three years or consider issuing
             expired.
                                                an interim accreditation.
                                                Implement stronger password                     MW
             Access control weaknesses were     management requirements, regularly
ICE-4-17     identified in the Federal          review access logon attempts, and
             Financial Management System.       educate users on password best
                                                practices.
             CIS/ICE does not have                                                              MW
             procedures in place to
             periodically review System Time    Document and implement policies
CIS/ ICE
             and Attendance Report (STAR)       and procedures to perform a periodic
  4-18
             user access lists and could not    review of STAR user accounts.
             provide a list of all authorized
             STAR users upon request.




                                                          15
                                                        Appendix B

                 Department of Homeland Security
           Information Technology Management Comments
                        September 30, 2004




           Department of Homeland Security
            FY2004 Information Technology
Notification of Findings and Recommendations – Detail


             Customs and Border Protection




                              16
                                                                                      Appendix B

                                    Department of Homeland Security
                              Information Technology Management Comments
                                           September 30, 2004

                                   Department of Homeland Security
                                    FY2004 Information Technology
                        Notification of Findings and Recommendations - Detail
                                    Customs and Border Protection

                                                                              Disposition -
                                                                       Material Weakness (MW) or
 NFR #                 Condition                Recommendation
                                                                        Management Comment
                                                                                 (MC)
           (b)(2)High, (b)


           (b)(2)High, (b)

CBP-4-01                                                                         MW




CBP-4-02                                                                         MW




CBP-4-03                                                                         MW




CBP-4-04                                                                         MW




                                                 17
                                                                                                    Appendix B

                                      Department of Homeland Security
                                Information Technology Management Comments
                                             September 30, 2004

                                                                                            Disposition -
                                                                                     Material Weakness (MW) or
 NFR #                  Condition                       Recommendation
                                                                                      Management Comment
                                                                                               (MC)
           (b)(2)High
           (b)(2)High
CBP-4-05                                                                                       MW




CBP-4-06                                                                                       MW



                                                 all field sites, continue to
                                                 develop a formal site selection
           Weaknesses in the C&A process at
CBP-4-07                                         plan that prioritizes sites by                MW
           field sites.
                                                 criticality, and resolve common
                                                 issues in the corrective action
                                                 plan.
           Improvements are needed in            Coordinate with DHS in
           system logical access controls over   developing enterprise-wide
CBP-4-08   network assets affecting              solutions for improving network               MW
           headquarters and the National Data    and host-based system logical
           Center.                               access controls.
                                                 Complete efforts to identify all
           Interconnection Security              trading partners where ISAs
           Agreements (ISA) are not              have not been formally
CBP-4-09                                                                                       MW
           documented for 92 partners that       documented and approved, and
           connect with ACS.                     complete ISAs for identified
                                                 (b)(2)High
           (b)(2)High



CBP-4-10                                                                                       MC


           Weaknesses with the SAP R/3           Update the SAP R/3 Release 2
CBP-4-11                                                                                       MC
           Release 2 Risk Assessment.            Risk Assessment as appropriate.
                                                 Remove unnecessary privileges,
           Improvements needed in restricting
                                                 base access on the principles of
           access to sensitive system level
                                                 least privilege, and consider use
CBP-4-12   transactions through the On-Line                                                    MW
                                                 of a temporary account for
           Transaction Processing System
                                                 privileges infrequently required
           Security (CICS).
                                                 by users.
                                                 Take action to mitigate the
                                                 segregation of duties violations
           SAP R/3 Release 2 segregation of
                                                 identified or accept the risk of
CBP-4-13   duties issues were identified with                                                  MW
                                                 the issue, in which case
           several users.
                                                 additional documentation is
                                                 required.




                                                         18
                                                                                                    Appendix B

                                      Department of Homeland Security
                                Information Technology Management Comments
                                             September 30, 2004

                                                                                            Disposition -
                                                                                     Material Weakness (MW) or
 NFR #                 Condition                        Recommendation
                                                                                      Management Comment
                                                                                               (MC)
                                                 Implement access controls over
           The incident handling and response    incident response tickets,
           capability needs improvement          develop a risk-based approach to
CBP-4-14   regarding incident detection and      responding to incidents, ensure               MC
           initiation, response, recovery, and   workstation compliance, and
           closure.                              develop a standard real-time
                                                 automated reporting process.
                                                 Train all personnel responsible
           Audit logs are not appropriately
                                                 for reviewing audit logs on
CBP-4-15   monitored for the SAP R/3 Release                                                   MW
                                                 specific requirements for the
           2.
                                                 task.
           Weaknesses in the access control      Consistently document
CBP-4-16   process for the SAP R/3 Release 2     authorizations to SAP for all                 MW
           Materials Management.                 users.
           System access, user account
                                                 Implement policies and
           management, and configuration
                                                 procedures to address the access
CBP-4-17   weaknesses identified with the                                                      MW
                                                 control and configuration
           SAP general controls environment
                                                 weaknesses identified.
           for materials management module.
                                                 Remove unnecessary privileges,
           Least privilege principles are not    base access on the principles of
           appropriately enforced for            least privilege, and consider use
CBP-4-18                                                                                       MW
           mainframe user groups’ access to      of a temporary account for
           sensitive datasets/utilities.         privileges infrequently required
                                                 by users.




                                                         19
                                                        Appendix B

                 Department of Homeland Security
           Information Technology Management Comments
                        September 30, 2004




           Department of Homeland Security
            FY2004 Information Technology
Notification of Findings and Recommendations – Detail


                United States Coast Guard




                              20
                                                                                                  Appendix B

                                     Department of Homeland Security
                               Information Technology Management Comments
                                            September 30, 2004

                                   Department of Homeland Security
                                    FY2004 Information Technology
                        Notification of Findings and Recommendations - Detail
                                       United States Coast Guard

                                                                                          Disposition
                                                                                  Material Weakness (MW) or
NFR #                  Condition                     Recommendation
                                                                                   Management Comment
                                                                                             (MC)
          (b)(2)High


          (b)(2)High
CG-4-01                                                                                     MW



                                              Review and update the FPD
                                              User Guide and develop a policy
          The Finance and Procurement
                                              to ensure that application
CG-4-02   Desktop (FPD) User Guide is                                                       MC
                                              documentation is reviewed and
          outdated.
                                              updated regularly or when
                                              changes occur.
                                              Determine DHS status on
          Comprehensive policies for          publishing a policy on
          conducting personnel suitability    background checks and
          investigations or records to        suitability requirements and,
CG-4-03                                                                                     MC
          support the results of personnel    subsequent to this policy,
          suitability investigations do not   document, and enforce
          exist.                              procedures to ensure compliance
                                              (b)(2)High
          (b)(2)High




CG-4-04                                                                                     MW




                                              Develop policies and procedures
          procedures to restrict access to
                                              to address access and monitoring
          the UNIX operating system and
                                              in the UNIX operating system
CG-4-05   for monitoring access. No                                                         MW
                                              environment and periodically
          periodic reviews to determine if
                                              test the effectiveness of current
          current monitoring is functioning
                                              monitoring procedures.
          as intended.




                                                        21
                                                                                                  Appendix B

                                     Department of Homeland Security
                               Information Technology Management Comments
                                            September 30, 2004

                                                                                          Disposition
                                                                                  Material Weakness (MW) or
NFR #                Condition                      Recommendation
                                                                                   Management Comment
                                                                                             (MC)
                                             Develop change control policies
          Weaknesses associated with the     and procedures and retain all risk
CG-4-06   UNIX system software change        assessment and testing                         MW
          control process.                   documentation to provide an
                                             audit trail for changes.
          (b)(2)High
           (b)(2)High


CG-4-07                                                                                     MW




CG-4-08                                                                                     MW




CG-4-09                                                                                     MW



          The security plans for the Naval
          Electronics Supply Support         Complete the security plans in
CG-4-10                                                                                     MW
          System (NESSS) and FLS are         compliance with criteria.
          not in compliance with criteria.
           (b)(2)High
          (b)(2)High




CG-4-11                                                                                     MW



                                             Complete the OSC disaster
          The Operations Service Center
                                             recovery plan to include Coast
CG-4-12   (OSC) has not implemented a                                                       MW
                                             Guard-wide disaster recovery
          disaster recovery plan.
                                             planning.
                                             Implement policies and
          Entity wide security program       procedures and complete
CG-4-13   planning is not in place for the   documentation as necessary to                  MC
          Personnel Service Center (PSC).    develop entity wide security
                                             program planning for the PSC.

                                                       22
                                                                                                 Appendix B

                                     Department of Homeland Security
                               Information Technology Management Comments
                                            September 30, 2004

                                                                                         Disposition
                                                                                 Material Weakness (MW) or
NFR #                  Condition                     Recommendation
                                                                                  Management Comment
                                                                                            (MC)
                                              Complete a PSC Business
                                              Recovery Plan (BRP) including
          Weaknesses exist regarding PSC
                                              all necessary components, and
CG-4-14   service continuity and resource                                                  MW
                                              move the computer room to a
          classifications.
                                              more environmentally controlled
                                              environment.
          Weaknesses were identified at
                                              Evaluate and ensure password
          PSC relating to weak password
                                              compliance, implement
          settings, lack of monitoring of
                                              account/access maintenance and
CG-4-15   access lists or changes to                                                       MW
                                              monitoring procedures, and
          security profiles, and lack of
                                              implement monitoring of
          policies for monitoring operating
                                              operating system software.
          system software.
                                              Determine the sensitivity of
                                              positions supporting critical IT
          Documented procedures do not        systems and applications and
CG-4-16   exist at PSC to enforce             implement segregation of duties              MW
          segregation of duties principles.   or background screening to
                                              mitigate the risks created by
                                              (b)(2)High
          (b)(2)High


CG-4-17                                                                                    MW



CG-4-18                                                                                    MW



CG-4-19                                                                                    MW



CG-4-20                                                                                    MW




CG-4-21                                                                                    MW




CG-4-22                                                                                    MW




                                                        23
                                                                                                  Appendix B

                                     Department of Homeland Security
                               Information Technology Management Comments
                                            September 30, 2004

                                                                                          Disposition
                                                                                  Material Weakness (MW) or
NFR #                Condition                      Recommendation
                                                                                   Management Comment
                                                                                             (MC)
           (b)(2)High
          (b)(2)High




CG-4-23                                                                                     MW



                                             Continue developing the
          Implementation and                 implementation and
          management oversight of Coast      management oversight functions
CG-4-24                                                                                     MC
          Guard’s information security       and responsibilities for the Coast
          program remains fragmented.        Guard information security
                                             program.
                                             Modify CheckFree code to
          Interface controls do not ensure   include null values to maintain
          that record counts match as data   data integrity. Until system
CG-4-25                                                                                     MC
          is transferred from CGOF into      controls are implemented,
          CheckFree.                         develop manual compensating
                                             controls.
          Three of the four Database
                                             Separate the critical roles of
          Administrators at FINCEN also
CG-4-26                                      Database Administrator and                     MW
          have System Administrator
                                             System Administrator.
          rights and responsibilities.




                                                        24
                                                        Appendix B

                 Department of Homeland Security
           Information Technology Management Comments
                        September 30, 2004




           Department of Homeland Security
            FY2004 Information Technology
Notification of Findings and Recommendations - Detail


         Emergency Preparedness and Response




                              25
                                                                                                     Appendix B

                                        Department of Homeland Security
                                  Information Technology Management Comments
                                               September 30, 2004

                                    Department of Homeland Security
                                     FY2004 Information Technology
                         Notification of Findings and Recommendations - Detail

                                   Emergency Preparedness and Response

                                                                                               Disposition
                                                                                         Material Weakness (MW)
NFR #                 Condition                          Recommendation
                                                                                         or Management Comment
                                                                                                  (MC)
          Policies and procedures do not        Develop and implement policies and
EPR-4-
          exist to perform period review of     procedures regarding review of                    MW
  11
          IFMIS user access lists.              IFMIS user access lists.
          (b)(2)High
         (b)(2)High


EPR-4-
                                                                                                  MW
  16




EPR-4-
                                                                                                  MC
  17




          processes for ensuring that all       Periodically review user accounts
EPR-4-    general support system and            and update termination policies and
                                                                                                  MW
  18      application access, including         procedures to ensure compliance
          NEMIS, is timely removed for          with criteria.
          terminated employees.
                                                Allocate sufficient resources towards
          Seven critical systems do not have
EPR-4-                                          completing C&As and continue to
          a certification and accreditation                                                       MW
  19                                            meet the timelines established in the
          (C&A).
                                                FEMA Remediation Plan.
                                                Document and implement a process
          No documented process for
EPR-4-                                          for communicating passwords to
          generating or communicating new                                                         MW
  20                                            users and update the Instruction
          or reset IFMIS passwords to users.
                                                2200.7 as appropriate.
EPR-4-    IFMIS Table audit trail data is not   Perform and document review of
                                                                                                  MW
  21      reviewed periodically.                critical IFMIS Table audit trail data.
          Insufficient documentation exists     Strengthen system documentation
EPR-4-    to fully explain IFMIS functions      supporting the description of IFMIS
                                                                                                  MC
  22      and user access capabilities          user functions and their associated
          (b)(2)High
         (b)(2)High

EPR-4-
                                                                                                  MW
  23


                                                          26
                                                                                                      Appendix B

                                       Department of Homeland Security
                                 Information Technology Management Comments
                                              September 30, 2004

                                                                                                Disposition
                                                                                          Material Weakness (MW)
NFR #                Condition                           Recommendation
                                                                                          or Management Comment
                                                                                                   (MC)
          (b)(2)High
         (b)(2)High

EPR-4-
                                                                                                   MW
  24



EPR-4-
                                                                                                   MW
  25



         and Collection System (IPAC
         provides for interagency billings     We recommend that EPR ensure that
         and payments for supplies and         there is a clear indication of the level
EPR-4-
         services. Of five IPAC User           of IPAC access requested for any                    MC
  28
         Request Forms selected for testing,   EPR employees granted access to
         we noted one form on which the        IPAC.
         employee’s access was not
         specifically indicated.
         The Continuity of Operations          Finalize and obtain management
EPR-4-
         Plans (COOP) for IFMIS and            approval of the COOP plans and then                 MW
  32
         NEMIS are in draft.                   periodically test the plans.
                                               Establish interagency agreements for
         Mt. Weather has not documented
                                               alternate data processing and
         interagency agreements for
EPR-4-                                         telecommunication facilities in the
         alternate data processing and                                                             MC
  35                                           event of a disaster and include
         telecommunication facilities in the
                                               agreement in the COOP once it is
         event of a disaster.
                                               implemented.
         FEMA has not prioritized its          Identify and document all resources
         critical data and operations,         supporting critical operations,
         emergency processing priorities       develop priorities of systems, data
EPR-4-
         and procedures have not been          and operations to be recovered in the               MW
  39
         documented, and all resources         event of a disaster, and document
         supporting critical operations have   information in the Project Step
         not been identified.                  Matrix 1 Report.




                                                          27
                                                        Appendix B

                 Department of Homeland Security
           Information Technology Management Comments
                        September 30, 2004




           Department of Homeland Security
            FY2004 Information Technology
Notification of Findings and Recommendation – Detail


Limited Scope – Federal Law Enforcement Training Center




                              28
                                                                                             Appendix B

                                     Department of Homeland Security
                               Information Technology Management Comments
                                            September 30, 2004

                                 Department of Homeland Security
                                  FY2004 Information Technology
                      Notification of Findings and Recommendations -Detail
                    Limited Scope – Federal Law Enforcement Training Center

                                                                                      Disposition
NFR #              Condition                      Recommendation              Material Weakness (MW) or
                                                                              Management Comment (MC)
         Incident response policies and
         procedures are not in place      Develop, finalize, and maintain
LTD-4-
         and/or finalized for the FLETC   incident response capabilities in             MC
  01
         Momentum Financial System        accordance with criteria.
         (MFS).




                                                      29
                                                        Appendix B

                 Department of Homeland Security
           Information Technology Management Comments
                        September 30, 2004




           Department of Homeland Security
            FY2004 Information Technology
Notification of Findings and Recommendations – Detail


                         Consolidated




                              30
                                                                                                 Appendix B

                                      Department of Homeland Security
                                Information Technology Management Comments
                                             September 30, 2004

                                  Department of Homeland Security
                                   FY2004 Information Technology
                       Notification of Findings and Recommendations - Detail
                                             Consolidated

                                                                                          Disposition
NFR #             Condition                        Recommendation                 Material Weakness (MW) or
                                                                                  Management Comment (MC)
        Excessive Treasury
        Information Executive
                                           Reevaluate TIER user privileges
        Repository (TIER) system
                                           and restrict user account privileges
        privileges were granted and a
                                           to the minimum necessary to
CONS-   documented process does not
                                           perform job duties, and document a               MC
 4-01   exist to notify TIER
                                           process to timely notify TIER
        application administrators of
                                           administrators of user termination
        user termination or transfer for
                                           or transfer.
        timely removal of system
        access.
        The interagency agreement
        between DHS and Treasury
        regarding use of TIER and the      Ensure that the interagency
        related reporting tool (CFO        agreement for TIER and CFO
CONS-   Vision) does not describe the      Vision clearly specify the
                                                                                            MC
 4-02   information security controls      information security controls to be
        that need to be implemented        maintained by Treasury, consistent
        and managed by the data            with criteria.
        owner (DHS) or the system
        operator (Treasury).
        Lack of compliance with
        FISMA in the areas of access
                                           Ensure timely submission of
        controls, entity-wide security
CONS-                                      FISMA reports to OMB and
        program planning and                                                                MW
 4-03                                      implement stronger controls in all
        management, system software,
                                           identified areas.
        segregation of duties, and
        service continuity.




                                                         31
                                                        Appendix B

                 Department of Homeland Security
           Information Technology Management Comments
                        September 30, 2004




           Department of Homeland Security
            FY2004 Information Technology
Notification of Findings and Recommendations - Detail


 Office of State and Local Government Coordination and
Preparedness (SLGCP, formerly the Office for Domestic
                     Preparedness)




                              32
                                                                                                    Appendix B

                                      Department of Homeland Security
                                Information Technology Management Comments
                                             September 30, 2004

                               Department of Homeland Security
                                FY2004 Information Technology
                    Notification of Findings and Recommendations - Detail
  Office of State and Local Government Coordination and Preparedness (SLGCP, formerly
                             the Office for Domestic Preparedness)

                                                                                                  Disposition
                                                                                            Material Weakness (MW)
NFR #                 Condition                            Recommendation
                                                                                            or Management Comment
                                                                                                     (MC)
         A system owner and security
                                                 Assign the appropriate personnel to the
SLGCP-   manager has not been identified to
                                                 system owner and security manager                   MC
 4-05    track background investigations and
                                                 positions.
         personnel clearances.
         A Service Level Agreement (SLA) is
                                                 Document, approve, and maintain an
SLGCP-   not in place with the third party
                                                 SLA with the third party hosting the                MC
 4-06    hosting the Data Collection Toolkit
                                                 DCT.
         (DCT).
                                                 Develop and implement policies and
                                                 procedures relating to IT security
SLGCP-   A documented security awareness
                                                 awareness training and ensure that IT               MC
 4-07    training program is not in place.
                                                 personnel receive the proper training to
                                                 perform job duties.
                                                 Document segregation of duties
                                                 policies and procedures for SLGCP
         Segregation of duties is not properly
                                                 information system functions and
SLGCP-   enforced and documented policies
                                                 create and information systems                      MW
 4-08    outlining segregation of duties
                                                 department responsible for security and
         controls or procedures do not exist.
                                                 network administration of SLGCP
                                                 (b)(2)High
         (b)(2)High




SLGCP-
                                                                                                     MW
 4-09




                                                 methods for improving the process to
         Application user accounts are not       notify the security officer that an
SLGCP-
         removed in a timely manner after        SLGCP employee or contractor has                    MW
 4-10
         user separation.                        been transferred or has terminated
                                                 employment and longer requires system
                                                 access.
                                                 Allocate sufficient funds to complete
SLGCP-   A C&A does not exist for the SF 269     the necessary documentation and
                                                                                                     MW
 4-22    web based system.                       perform a C&A on the SF 269 web
                                                 based system.




                                                         33
                                                                                                      Appendix B

                                      Department of Homeland Security
                                Information Technology Management Comments
                                             September 30, 2004

                                                                                                    Disposition
                                                                                              Material Weakness (MW)
NFR #                 Condition                              Recommendation
                                                                                              or Management Comment
                                                                                                       (MC)
         The reconciliation process for
         financial transactions that occurred     Develop a process to monitor, record,
SLGCP-   between IFMIS and the SF 269 web         and track the financial transactions that
                                                                                                       MC
 4-25    based system was not fully               occur between IFMIS and the SF 269
         implemented throughout the fiscal        web based system.
         year.
                                                  Develop a policy to explain in detail
         The SF 269 web based system              the methods for audit logging and
SLGCP-   captured transactions but did not        monitoring, maintain clear records of
                                                                                                       MW
 4-26    capture user activity for three months   system audit logs, and document,
         of the fiscal year.                      investigate, and close any questionable
                                                  events.




                                                          34
                                                        Appendix B

                 Department of Homeland Security
           Information Technology Management Comments
                        September 30, 2004




           Department of Homeland Security
            FY2004 Information Technology
Notification of Findings and Recommendations – Detail


         Transportation Security Administration




                              35
                                                                                                   Appendix B

                                      Department of Homeland Security
                                Information Technology Management Comments
                                             September 30, 2004

                                   Department of Homeland Security
                                    FY2004 Information Technology
                        Notification of Findings and Recommendations - Detail
                                Transportation Security Administration

                                                                                            Disposition
 NFR #                Condition                       Recommendation                Material Weakness (MW) or
                                                                                    Management Comment (MC)
           Segregation of duties is not        Implement controls to restrict
TSA-4-01   properly enforced in the Delphi     access based on the principles of              MW
           Application within FFMS.            least privilege.
                                               Ensure that system controls will
           Weaknesses in Delphi access
                                               be appropriately implemented in
TSA-4-02   controls, network security, and                                                    MW
                                               the version of FFMS to which
           system security controls.
                                               TSA will be migrating.
                                               Continue holding meetings to
                                               identify system integrity
           System financial integrity issues
                                               problems and track corrective
TSA-4-03   identified in the Dephi                                                            MW
                                               action in the form of
           application.
                                               reconciliation and manual
                                               controls.
                                               Correct issues regarding
           Inaccuracies exist within TSA
                                               separated employees and
           personnel records which
                                               continue reconciliation efforts to
TSA-4-04   addresses both separated                                                           MW
                                               correct erroneous personnel
           employee issue and other
                                               information in CUPS and
           erroneous personnel records
                                               CPMIS.




                                                         36
                                                            Appendix C

                     Department of Homeland Security
               Information Technology Management Comments
                            September 30, 2004




Appendix C - Cross-Walk of Previous Year’s Notice of Findings
          and Recommendations to Current Year




                                  37
                                                                                                   Appendix C

                                     Department of Homeland Security
                               Information Technology Management Comments
                                            September 30, 2004

                                                                                                Disposition
Bureau    NFR No.   Description                                                           Closed       Repeat

CIS/ICE   03-02     Benefits Systems Division has no risk assessment for the Claims 3       X
                    mainframe
CIS/ICE   03-03     BCIS needs to complete and strengthen security plans for Claims 3       X
                    Mainframe and Claims 4
CIS/ICE   03-04     BCIS security training polices not implemented                          X
CIS/ICE   03-10     (b)(2)High
                    (b)(2)High
                                                                                                        04-19
CIS/ICE   03-12                                                                                         04-09
CIS/ICE   03-13     BCIS Access Control Weaknesses                                          X
CIS/ICE   03-14     BCIS/BICE service continuity weaknesses                                 X
CIS/ICE   03-15     Implementation of Corrective Actions for Claims 3 and Claims 4 from     X
                    the Security Test and Evaluation (ST&E) not implemented


CBP       03-01     (b)(2)High
                    (b)(2)High
                                                                                                        04-01
CBP       03-02                                                                             X
                    Functions
CBP       03-03     Non-existent/Incomplete NDC Fire Evacuation Plans and Procedures        X

                    (b)(2)High
                    (b)(2)High
CBP       03-04                                                                                         04-04
CBP       03-05                                                                                         04-18

CBP       03-06                                                                                         04-02

CBP       03-07                                                                                         04-09
CBP       03-08                                                                                         04-08
CBP       03-09                                                                                         04-02

CBP       03-10                                                                                         04-14
CBP       03-11     Lack of Certification & Accreditation of CBP's Data                     X
                    Telecommunications Network
                    (b)(2)High
                    (b)(2)High
CBP       03-12                                                                                         04-10
CBP       03-13     Application Change Control Documentation Process is not Consistent      X
                    with Published Guidance
                    (b)(2)High
                    (b)(2)High
CBP       03-14                                                                                         04-07
CBP       03-15                                                                                         04-03
CBP       03-16                                                                                         04-05
CBP       03-17                                                                                         04-12

CBP       03-18                                                                                         04-06

                                                        38
                                                                                                 Appendix C

                                    Department of Homeland Security
                              Information Technology Management Comments
                                           September 30, 2004

                                                                                              Disposition
Bureau   NFR No.   Description                                                          Closed       Repeat

                   (b)(2)High
                   (b)(2)High
CBP      03-19                                                                                        04-03


                   (b)(2)High
                   (b)(2)High
CG       03-001                                                                                       04-022

CG       03-002                                                                                       04-013

CG       03-003                                                                                       04-014

CG       03-004                                                                           X
CG       03-005    No documentation of system software changes; same staff makes          X
                   changes and moves into production. – AR&SC -
CG       03-006    Infrequent back up, weaknesses in DRP – AR&SC                          X
CG       03-007    Application changes do not follow procedures – AR&SC                   X
CG       03-008    (b)(2)High
                   (b)(2)High
                                                                                                      04-020

CG       03-009                                                                                       04-004

CG       03-010                                                                                       04-005

CG       03-011                                                                                       04-006

CG       03-012    Telecommunications—weak password allowed access to Dataline card       X
                   reader application. (War Dial)
                   (b)(2)High
                   (b)(2)High
CG       03-013                                                                                       04-007

CG       03-014                                                                           X
                   information technology support positions within FINCEN are not up-
                   to-date
CG       03-015    FINCEN personnel are not currently using PVCS® Tracker/Version         X
                   Manager to maintain and track application changes for CGOF or
                   LUFS.
CG       03-016    System Developer Access to Production Software and Files – AR&SC       X
                   – BCCP not up to date, tested, no training in BCCP.
CG       03-017    (b)(2)High
                   (b)(2)High
                                                                                                      04-008

CG       03-018                                                                           X
                   configuration and changes not documented.
CG       03-019    NESSS Access Administration – OSC/ELC—No process to ensure             X
                   system access commensurate with responsibilities.
CG       03-020    FLS (Fleet Logistics System) Access – OSC/ELC – weak passwords         X
                   and log ins and no ability to track.
                   (b)(2)High
                   (b)(2)High
CG       03-021                                                                                       04-009

                                                     39
                                                                                                 Appendix C

                                      Department of Homeland Security
                                Information Technology Management Comments
                                             September 30, 2004

                                                                                              Disposition
Bureau   NFR No.   Description                                                          Closed       Repeat

                   (b)(2)High
                   (b)(2)High
CG       03-022                                                                                       04-011

CG       03-023                                                                           X
                   Development Life Cycle (SDLC) methodology and violate segregation
                   of duties.
CG       03-024    (b)(2)High
                   (b)(2)High                                                                         04-010
CG       03-025                                                                                       04-012
CG       03-026                                                                                       04-015
CG       03-027                                                                                       04-016

CG       03-028                                                                                       04-021
CG       03-029                                                                                       04-015

CG       03-030                                                                                       04-015

CG       03-031                                                                                       04-014
CG       03-032                                                                           X
CG       03-033    PSC transmissions-- No confirmation of receipt of data.                X
CG       03-034    (b)(2)High
                   (b)(2)High
                                                                                                      04-003
CG       03-035                                                                           X
CG       03-036    Service continuity—No DRP, no testing of COOP                          X
CG       03-037    Security Training – HQ—Training not tracked.                           X
CG       03-038    (b)(2)High
                   (b)(2)High
                                                                                                      04-023

CG       03-039                                                                                       04-019
CG       03-040                                                                           X
                   Ledger Module during data conversion.
CG       03-041    (b)(2)High
                   (b)(2)High
                                                                                                      04-018
CG       03-042                                                                                       04-017


CG       03-043                                                                                       04-024



CONS     03-01     (b)(2)High
                   (b)(2)High
                                                                                                      04-02

CONS     03-02     Lack of assessment or assurance of security controls in place over     X
                   TIER and CFO Vision
CONS     03-03     DHS TIER resides on a test server                                      X

                                                        40
                                                                                                     Appendix C

                                      Department of Homeland Security
                                Information Technology Management Comments
                                             September 30, 2004

                                                                                                  Disposition
Bureau   NFR No.   Description                                                              Closed        Repeat

                   (b)(2)High
                   (b)(2)High
CONS     03-04                                                                                             04-01
CONS     03-05     Lack of a comprehensive and accurate financial system inventory            X


                   (b)(2)High
EPR      03-04     (b)(2)High                                                                              04-11

EPR      03-05                                                                                             04-39

EPR      03-06                                                                                             04-32
EPR      03-07                                                                                             04-16
EPR      03-08                                                                                             04-17

EPR      03-09                                                                                             04-18

EPR      03-10                                                                                             04-19

EPR      03-11                                                                                X
                   not provided to newly hired employees and contractors as part of their
                   orientation to Federal Emergency Management Agency (FEMA).
                   (b)(2)High
                   (b)(2)High
EPR      03-12                                                                                             04-20
EPR      03-13                                                                                             04-21

EPR      03-14                                                                                             04-22
EPR      03-22                                                                                             04-23

EPR      03-23                                                                                             04-24
EPR      03-24                                                                                X
EPR      03-26     (b)(2)High
                   (b)(2)High
                                                                                                           04-25


                   (b)(2)High
                   (b)(2)High
LTD      03-01                                                                                             04-01


SLGCP    03-01     (b)(2)High
                   (b)(2)High
                                                                                                       Reissued under
                                                                                                        the DOJ OJP
                                                                                                            audit
SLGCP    03-02                                                                                X
                   (b)(2)High
                   (b)(2)High
SLGCP    03-03                                                                                            Note 1




                                                        41
                                                                                                     Appendix C

                                      Department of Homeland Security
                                Information Technology Management Comments
                                             September 30, 2004

                                                                                                  Disposition
Bureau   NFR No.   Description                                                              Closed       Repeat

SLGCP    03-04     Access Controls, System Software - poor configuration management                       Note 1
                   on OJP servers

SLGCP    03-05     Access Controls - lack of compliance with security                         X
                   measures at workstation area
SLGCP    03-06     Change Controls relating to service request signatures                     X


SLGCP    03-07     Security Program not updated for current conditions                        X
                   for FY2002 or FY2003 or FY2004

SLGCP    03-08     Weakness in service continuity plans                                       X


SLGCP    03-09     Access privileges and profiles for IFMIS.                                  X

SLGCP    03-10     External network on the ODP web server contained default java scripts.     X


TSA      03-01     Individuals can both initiate and approve SF52 personnel actions           X
TSA      03-02     Resource constraints in maintaining personnel system                       X
TSA      03-03     (b)(2)High
                   (b)(2)High
                                                                                                          04-04
TSA      03-04                                                                                            04-02




                                                          42
                                                        Appendix D

                 Department of Homeland Security
           Information Technology Management Comments
                        September 30, 2004




Management Response to Draft Information Technology
               Management Letter




                              43
                                             Appendix D

      Department of Homeland Security
Information Technology Management Comments
             September 30, 2004




                   44
                                             Appendix D

      Department of Homeland Security
Information Technology Management Comments
             September 30, 2004




                   45
                                             Appendix D

      Department of Homeland Security
Information Technology Management Comments
             September 30, 2004




                   46
                                             Appendix D

      Department of Homeland Security
Information Technology Management Comments
             September 30, 2004




                   47
                                             Appendix D

      Department of Homeland Security
Information Technology Management Comments
             September 30, 2004




                   48
                                             Appendix D

      Department of Homeland Security
Information Technology Management Comments
             September 30, 2004




                   49
                                             Appendix D

      Department of Homeland Security
Information Technology Management Comments
             September 30, 2004




                   50
                   Report Distribution

                   Department of Homeland Security

                   Secretary
                   Deputy Secretary
                   General Counsel
                   Chief of Staff
                   Executive Secretariat
                   Under Secretary, Management
                   Chief Information Officer
                   Chief Financial Officer
                   DHS Public Affairs
                   DHS Audit Liaison
                   Chief Information Office Audit Liaison
                   DHS Public Affairs

                   Office of Management and Budget

                   Chief, Homeland Security Branch
                   DHS OIG Budget Examiner

                   Congress

                   Congressional Oversight and Appropriations Committees as Appropriate




Information Technology Management Letter for the FY 2004 DHS Financial Statement Audit
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
